   I«
                                                                               NATIONAL SCIENCE FOUNDATION

  &1 . . /.'•.....•.   >. '.•. '......   ,)~.                                   OFFICE OF INSPECTOR GENERAL
                                                                                  OFFICE OF INVESTIGATIONS
 ; ,. ,. . . . . . . ,.',. ······.·T
   -<'0·      .  o~                                                    CLOSEOUT MEMORANDUM
         uIVOA~\.


Case Number: 105080041


                                                                                                              'I"
              We investigated a matter that arose out of a proactive review of expenditures made under US-
              Egypt Awards. It appeared from the review of an NSF award,1 that funds were used to pay for 2
              trips that w.ere outside the scope of the initial award, that the university was unable to ptovided
              documentation for one trip as the documentation had been misplaced after an associated audit,
              and that no final report had been filed.

              We contacted the awardee institution2 for an explanation, and discussed the justification' provided
                                                                      3                                   II
              by the university with the NSF program officer (PO). The PO noted that the use of fun~s for the
              identified trips was not within the initial scope of the award and that the university did npt
              request prior or even subsequent approval to use the NSF award funds at issue for these trips.
              Moreover, the PO confirmed that no final report had been filed.

              At our request, the university provided a copy of the audit report that reviewed the trip for which
              the documentation was subsequently misplaced; provided OIG and NSF with a copy oftlie final
              report, which had previously been filed with the US embassy in Egypt; and reimbursed NSF
              $          for the costs of the 2 trips identified, in the amount of $        in direct costs; plus
              the related indirect costs of $                                                              <



                                           Accordingly, this case is closed.




               1 Redacted
               2   Redacted
               3   Redacted




NSF OIG Fonn 2 (11102)
